                                                      NA nONAL SCIENCE FOUNDA nON
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESnGA nONS

                                                CLOSEOUT MEMORANDUM


Case Number: 106110044                                                                     Page 1 of 1




         The National Science Foundation, OIG opened this investigation based on allegations that a
                                                                                                     3
         University Medical Center\ employee2 , who was a Principal Investigator (PI) on an NSF award ,
         misappropriated federal grant funds.

         A report provided to NSFIOIG by the University stated that NSF grant funds were found to have
       . been misappropriated by the·PI. The PI was fired; all projects under his. direction were assigned
         to a new PI or discontinued. The University returned all funds to NSF which were found to have
         been misappropriated from the NSF award.

         This matter was referred to the Department of Justice for criminal prosecution and declined in
         lieu of administrative remedies .. On March 11, 2009, an Investigation Report was submitted to
                                                                             4
         NSF recommending debarment of the PI for a period ofthree years. On July '15,2009, NSF sent
         a Notice of Proposed Debarment to the PI for a period of three years. 5 On October 26,2009,
         NSF notified the PI that he is debarred from receiving Federal financial and non-financial
         assistance until July 15,2012. 6

         No further investigative efforts are required in this case.

         Accordingly, this case is closed.




         2



         4 See Attached Investigation Report.
         S See Attached Letter, "Notice of Proposed Debannent."
         6 See Attached Letter, "Debarment.'?




NSF OIG Fonn 2 (1\/02)
                                                                                        CONFIDENTIAL
CONFIDENTIAL




       National Science Foundation
       Office of Inspector General




                                   Confidential
                    Report of Investigation
                  Case Number 106110044·
                              March 11,2009


This Confidential Report of Investigation is the property of the NSF orG and may be disclosed outside
    NSF only by orG under the Freedom of Information and Privacy Ar.ts, 5 U.S.C §§ 552, 552a.

                                                                                 NSF DIG Form 22b (11/06)
                                 Executive Summary

Allegation:        The Subject expended NSF award funds for personal and non-NSF award
                   r~lated purposes.


The Snbject:                   was an Associate Professor at
                                   (the University), a Director of one of the University's
                   research centers and a Principal Investigator on a NSF Award (the
                   Award).

OIG
Investigation:     In May 2006, the University notified NSF of its investigation related to
                   inappropriate expenditures by the Subject of NSF Award funds and funds
                   from other federal agencies. The University'S Office of Internal Audit and
                   an outside audit firm reviewed the entire A ward and determined that,
                   including expenditures that were inadequately documented and those
                   made by the Subject for personal and non-NSF award related purposes,
                   $210,527.15 in NSF Award funds had been inappropriately expended.
                   The Subject used the University purchase card to make many of these
                   inappropriate purchases. The University credited back to NSF a total of
                   $282,409.78, which included indirect costs. The Subject was terminated
                   by the University in June 2006.

                   OIG reviewed the materials provided by the University to assess what
                   portions of the returned funds were attributable to the Subject's
                   misconduct. OIG determined that the Subject charged a variety of items
                   for his personal use to the Award. These personal expenditures totaled
                   $10,275. OIG's review also determined that the Subject charged the
                   Award· for items attributable to other awards. These expenses totaled-
                           $19,906. Finally, the Subject charged the Award for various items
                   of an apparent business nature that were not attributable to arty award.
                   These charges totaled $116,922. Including items charged to NSF for his
                   personal use, the Subject was responsible for $147,103 of the total amount
                   of inappropriate expenditures.

 DOJ Assessment:    DOJ declined prosecution of this matter because the University has made
                    restitution and reimbursed NSF for all improper expenditures.

/OIG
 Assessment:        The Subject misappropriated NSF award funds for personal and non-NSF
                    award related purposes.

 OIG
 Recommends:        Pursuant to 2 C.F.R § 180 et seq., and based upon the facts herein, OIG
                    recommends that NSF debar the Subject for 3 years and prohibit the
                    Subject from serving as an NSF merit reviewer, advisor or consultant for
                    3 years from the fmal disposition of this case.


                                             1
     I.     OIG INVESTIGATION

            A. Factual Background

On May 16, 2006,                                 .              (t~e l{niversity) notified NSF of
its investigation related to inappropriate expendItures by the Subject from an NSF award (the
Award)2 and other federal grants. 3 The Subject used a University purch~se card on many
occasions to make these inappropriate expenditures. Shortly thereafter, III June 2006, the
University terminated the Subject. In November 2006, a University audit concluded that a total
of $24,069 of Award funds had been mischarged. The University credited back to NSF a total of
 $30,659, which included indirect costs.

Thereafter, the University commissioned an independent audit firm to conduct follow up work to
uncover any additional inappropriate expenditures. In August 2007, this independent review
identified an additional $186,458 in inappropriate charges to the Award. On September 11,
2007, the University credited back to NSF a total of $251,750, which included indirect costs.
Thus, including indirects, a total of $282,409 was. mischarged· to the Award, all of which the
University has returned to NSF. s           ·                            .

             B. OIG Review and Assessment

In order to ascertain what portion of the total mischarges were attributable to the Subject's
personal expenditures, OIG reviewed both the University and the independent audit reports and
additional materials provided by the University at OIG request. Based upon this review, OIG
determined that the Subject purchased numerous personal items with Award funds, some of
which he shipped directly to his home. The personal purchases included two LCD computer
monitors, a CD drive, a video card, cherry bookshelves, and books. The total value of these
personal items is $10,275. 6

In addition, the Subject charged the Award a total of $19,906 for equipment and travel expenses
allocable to non-NSF awards. 7 Further, the Subject charged $116,922 to the Award for items of
an apparent business nature, but which could not be attributed to any award.. These charges




   The University's termination letter is at TAB 3. .                              .
 5 The University's .audit report is attached at TAB 4. The independent audit report is attached at TAB 5.
 6 At OIG's request, the University and the independent auditors prepared a chart that categorizes the mischarges,
 including the personal expenditures. This chart is at TAB 6. The University audit report at TAB 4, the independent
 audit report at TAB 5 and the University'S termination letter at TAB 3 provide additional detail on Subject's
 personal expenditures using both Award and other federal funds. See also TAB 7, which contains shipping receipts
 for the cherry bookshelves sent to the Subject's home. These bookshelves were charged to the Award.
 7 See TAB 6.                                                                                               .


                                                         2
included a $50,000 robot. s In total, including personal expenditures, Subject is responsible for
                                     9
mischarging $147,103 to the Award.                            . .


     II.      DOJ ASSESSMENT
Based upon the above facts, OIG concluded that the Subject may have violated several federal
laws by his inappropriate expenditures of ·Award funds for .persona! and non:~SF award
purposes. These laws include 18 U.S.C. § 666 (theft concernmg ~rograms receIVmg federal
funds); 18 U.S.C. § 287 (criminal false claims); 18 U.S.C. § 1343 (wIre frau~); and .18 U.S.~. §
3729 (civil false claims). We referred the matter to the Department of Justlce, which dechned
         .   10   .                                           .  .
prosecutlOn.                                          . .

     III.      DEBARMENT

               A. Grounds for Debarment

NSF has the authority to debar an individual or entity for "[v]iolation of the terms of a public·
agreement or transaction so serious as to affect the integrity of an agency program ....,,11 Such
a violation occurs when the individual or entity cOmlnits a "willful violation of a statutory or
regulatory provision or requirement applicable to a public agreement or transaction . . . .,,12
Further, NSF has the authority to debar an individual or entity for "[a]ny other cause so serious
or compelling a nature that it affects [the person's or entity's] present responsibility.,,13

 Federal grants serve public not private purposes. 18 U.s.C § 6304 (1) provides:

            An executive agency shall use a grant agreement as the legal instrument reflecting a
            relationship between the United States Government and a State, a local government, or
            other recipient when-                    .
            1) the principal purpose of the relationship is to transfer a thing of value to the State or
                local government or other recipient to carry out a public purpose of support or
                stimulation authorized by a law of the United States. . . .

 NSF awards perform this function. The National Science Foundation Act, 42 U.S.C. § 1860 et
 seq provides:



 8 See TAB 6.
 9 The Subject's degree of responsibility for other mischarges included in the total funds returned to NSF is unclear.
 These charges are found on the chart at TAB 6 in the columns named "Departmental Costs", "Related to Human
 Subject Testing" and "Inadequate Support and Documentation." Both the Subject and the University would appear
 responsible in some degree for these mischarges, but apportioning responsibility between them is uncertain. See
 discussion, infra, regarding organizational actions taken and polices and procedures adopted by the University to
 address these matters.
 to The email received by the Department of Justice declining prosecution is at TAB 8.
 11 2 C.F.R. § 180.800(b).
 122 C.F.R. § 180.800(b)(3).
 13
    2 C.F.R. § 180.800(d).


                                                           3
      § 1862. Functions                                               . '                    '..
      (a) Initiation and support of studies and programs; scholarshIps; current regIster of sCIentrfic
          and technical personnel. The Foundation is authorized and directed-                        .
               (1) to initiate and support basic scientific research and programs . . . by makmg
                   contracts or other arrangements (including grants, loans and other forms of
                   assistance) to support such scientific, engineering, and educational activities . . .

Here, when the Subject spent NSF funds for personal and non-NSF award purposes, he willfully
violated these provisions. Further,the Subject's misappropriation of monies intended to benefit
the public reflects a fundamental lack of integrity and is of such a serious nature that it affects the
Subject's present responsibility. Consequently, OIG recommends that NSF debar the Subject for
a period of 3 years.

                B. Burden of Proof

In debarment actions, the burden of proof lies with the acting agency (NSF) to demonstrate by a
preponderance of the evidence that cause for debarment exists. 14 Here, the preponderance of the
evidence indicates that the Subject purchased numerous personal items with Award funds,
including two LCD computer monitors, a CD drive, a video Gard, cherry bookshelves, and books,
some of which he shipped directly to his home. The Subject also charged travel and equipment
expenses to the Award which should have been charged to non-NSF awards. Finally, he charged
the Award for expenses of an; apparent business nature, such as the robot, which were not
attributable to any award. IS These facts demonstrate that the Subject purposefully and willfully
violated the terms of a public agreement and demonstrated a lack of integrity that affects his
present responsibility.

                C. Relevant Factors

The debarment regulation lists 19 factors that the debarring official may consider}6 Listed
below are the factors pertinent to this case.

       1. Actual or Potential Harm or Impact l7

The Subject's actions caused actual harm to NSF and to the public because he spent NSF award
funds for personal and non-NSF award purposes, rather than for the intended public purposes.
The NSF Program Division Director l8 reviewed the final project report and assessed the impact
of the Subject's actions on the project stating:

           [Subject's] Final Report gives little indication of research accomplishments.
           Much of the text reviews various approaches to credibility assessment and


142 C.F.R. § 180.850, and 2 C.F.R. § 180.855.                     .
15 See TAB 10. Subject's Response, p.4 - Subject states that the NSF Award was charged in error for the robot and
he is not sure who is responsible.
16 2 C.F.R. § 180.860.

17.2 •C.,F•.R• . •
 18              l.80.



                                                        4
        brain imaging methods, and contains vague statements. , , , There.is little
        however in the way of actual research results , , , for instance, he references
        "pilot work" but there is not mention ,of actua!.findings, ~he~~ are ~wo ..
        manuscripts mentioned but both are lIsted as Under Revlew , A literature
        search reveals that there are no publications to date, One Post-Doc was
        involved in the research,19

The Subject, however, stated that he believes project goals were achieved and that the
mischarges did not affect ~he award?O The University has concluded tha,t the~e was n~ han:n ~o
the human subjects as a result of the Subject's conduct or due to shortcommgs m the Umverslty s
         ·'
human sub~ect testmg program.
                                21


                                                                              2
      2, Frequency of Incidents and/or Duration ofWrongdoini

The Subject made numerous personal and non-NSF Award related purchases with Award funds
over a 2-year period.

      3. Pattern23

Not only did the Subject mischarge NSF over a 2-year period, he also mischarged other federal
agencies on their awards. The total amount of improper expenditures charged to other federal
agencies is approximately $678,000. 24 The University did not break out categories of
mischarges as it did for the Award2s , thus Subject's degree of responsibility for the total amount
of these mischarges is ·unclear. Nonetheless, some portions of these mischarges are attributable
directly to the Subject's misconduct, as the University confirmed that personal expenditures were
included in the tota1. 26

      4. Role in Wrongdoini7         .


The Subject usually made the purchases himself, often using a university purchase card, and
shipped certain personal items directly to his home .. Subject admits that occasionally his
subordinates made the purchases, usually at his direction?S




 19

20 TAB 10. Subject's Response.               . ..
21 See TAB II. See also page 1 of the letter dated October 16, 2006 from the University to the Office for Human
Research Protections at TAB 13 and page 1 of the August 31, 2007 letter from the University to OIG at TAB 12
which state the same. The actions the University has taken to address these shortcomings in its human subject
testing program are discussed infra - at "9. Organizational Action."
222 C.F.R. § lSO.S60(b).
23 2 C.F.R. §ISO.S60(c).
24 TAB 2, letter dated October 3, 200S, from the University to OIG.
25 See TAB 6.
26 TAB 2, letter dated October 3, 200S, from the University to OIG.
272 C.F.R. §lSO.S60(f).
28 See TAB 10, Subject's Response.




                                                        5
      5. Acceptance of Responsibili.-y29
 The Subject appeared slow in both understanding and accepting responsibility for ~s act~ons.30
.Even after the University investigation had commenced, and the Subject had been mterv.lewed,
 he directed a subordinate to use the unive~sity Rurchase card to buy a futon. frame, ,:hlCh. t~e
 University has identified as a personal use Item. Further, although early on m the Umverslty s
 investigation Subject admitted that. items had been mischarged, he insisted such mischarges were
 of a business nature. It was not until two .months into the University investigation that the
 Subject acknowledged that he mismanaged Award and other federal funds and inappropriately
 expended Award and other federal funds by purchasing items for personal home use, such as
 books. 32                                                                          .


 When questioned by the University about bookcases and furnishings that were purchased and
 shipped to his home, the Subject indicated that these items were for his "home office" and that he
                                                                                               33
 had not intended on charging these items to the NSF award but rather to a University account.

 The Subject, in his response to OIG, reiterates that the office equipment and furnishings were
                                                                                          34
 purchased for his home office and he does not consider these to be personal expenditures. The
 University however, noted that there was no record that he had ever requested permission, from
 the University or the federal government, to set up a home office and charge these expenses to
 the University or to any federal grants. 35                                            .


 When questioned about other items charged to grant accounts, such as books, which were clearly
 for personal use, the Subject at one point said that he had intended to charge such items to
 University accounts. The Universit~' s view is that these charges are "equally inappropriate" to
 the grants or to University accounts. 6 The subject however later acknowledged that some of the
 books were for his personal uSe and were not related to any research. 37

       6. Repaymene S

 The University has reimbursed NSF for all improper expenditures incurred under the Award,
 including those expenditures for the Subject's personal and non-NSF award related purposes.
 Upon his termination from the University, the Subject returned certain of the personal items to
 the University, including the bookshelves purchased with Award funds. However, the
 University had little use for many of these items. 39 Further, to date, the Subject has not


 29
    2 C.F.R. §I80.860(g).
 30 See TAB 3.
 31 See TAB 3. This futon frame does not appear to have been charged·to the Award.
 32 See TAB 3                     .
 33 See TAB  3:
 34 See TAB 10.

 35 See TAB 3 and TAB 10. Note: NSF did not receive a request or approve a home office for the Subject.
 36 See TAB 3.
 37 See TAB 3.
 38
    2 C.F.R. §180.860(h).
 39 TAB 11. MOl of conversation with the University's Assistant General Counsel.




                                                        6
reimbursed the University for other improper expenditures. The University sent
                                                                            4o
                                                                               a demand letter
to the Subject requesting reimbursement. The Subject has not yet responded.
                . 41
    7. C ooperatIon
The Subject spoke man! times with th~ Universi~ about his inap,gropriate expenditures, ~d
provided some informatIOn. Howev.er, hIS coop~ratIOn w~s uneve~. .For example, the Subject
initially stated that questionable items were bemg used ma Umversity Center, but when the
University auditor visited the Center, it appeared that the items were not there, or, had recently
materialized. Further, it was not until the University put the Subject on suspension that he
provided any detailed explanation regarding purchases that the University was reviewing.
Finally, as" noted above, even after the investigation had commenced, the Subject directed a
subordinate to purchase a personal item using the university purchase card.

     8. The Subject's Position43

The Subject was the Principal Investigator on the Award. He was also an Associate Professor at
the University, and a Director of one of its research centers.44
                                      45
     9. Organizational Action

  OIG has determined that the University has implemented new policies and procedures to address
. the concerns raised as a result of this case. These policies and procedures are designed to
  improve University functions· in four key areas: preventing a researcher from mischarging
  federal awards 'as occurred here; ensuring that going forward, adequate documentation is
  maintained on all expenditures charged to federal awards; placing tighter controls on and
  oversight of charges attributable to University departments46 ; and improving oversight of human
  subject testing}7




 40Id. The University sent the demand letter to the Subject in September 2008. OIG followed up with the University
 on 19 February 2009 and confirmed that the Subject has not yet responded.
 412 C.F.R. §180.860(i).
 42 See TAB 3. The details regarding cooperation relate to the totality of the University's investigation, not just that
 portion of the investigation related to Award funds.
 43.2I11C   •.•§.18.0•.8..6.0C.k.). • • • • • • • •
 44 .. •.F•.R
 45 2 C.F.R. §180.860(l).
 46 See TAB 2, letter from the University to OIG dated October 3,2008 that includes the implemented policies and
 procedures in these three areas. See also TAB 12 for the letter dated August 31,2007 from the University to OIG,
 and the letter dated November 1,2006 from the University to OIG discussing these policies and procedures.
 47 See TAB 13 for the letters dated July 19. 2006 and October 16, 2006 from the University to the Office for Human
 Research Protections detailing the steps the University has taken to correct the identified problems. The University
 appears to have taken these issues seriously. It suspended certain studies, conducted an extensive review, adopted
 new policies and procedures involving monitoring, consent and other matt~rs and instituted additional, mandatory
 training. Further, as discussed above, the University concluded there was no harm to human subjects as a result of
 identified problems.
      IV. RECOMMENDATION

The Subject is no longer employed by the knowledgeable institution; however, he is well
qualified to receive federal grant funds. DIG therefore recommends that NSF debar the Subject
for 3 years and prohibit the Subject from serving as an NSF merit reviewer, advisor or consultant
for 3 years following the final disposition of this case. These sanctions are necessary to ensure
federal funds are accessible only to responsible individuals, particularly in the current climate of
great concern over the appropriate use and safeguarding of federal funds.
                                                                              48
       V. SUBJECT'S RESPONSE TO DRAFT DEBARMENT REPORT

The subject was sent a draft copy ofthe debarment report. He responded and acknowledged that
his "financial management of the research project was clearly poor" but states he believes he
reached "reasonable and tangible goals" on the project. While we incorporated some of the
Subject's comments, we determined that the Subject's response did not provide adequate reason
for DIG to change its original determinations and recommendations.




48                       .
     See Tab 10. Subject's Response.


                                                 8
                                  NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON. VIRGINIA 22230


                                             JUL 1 52009


     OFFICE OF THE
    DEPUTY DIRECTOR




 CERTIFIED MAIL --RETURN R.ECEIPT REQUESTED

. Dr. Thomas A. Zeffiro ..



         Re: Noiice of Proposed Debar!ftent

 Dear Dr. ZefDro:

 In light of your misconduct, this letter serves as formal notice that the National Science
 Foundation (~'NSF") is proposing to debar you from directly or indirectly obtaining the benefits of
 Federal grants for three years. During your period of debarment, you will be precluded from
 receiving Federal financial and non-financial assistance and benefits under non-procurement
 Federal programs and aCtivities. In addition, you:will be prombited from receiving any Federal
 contracts or approved subcontracts under the Federal Acquisition Regulations C'FAR"). Lastly,
 during your debarment period, you will be barred from having supervisory responsibility, primary
 management, substantive control over, or critical influence on, a grant, contract, or ·cooperative
 agreement with any agency ofthe Executive Branch ofthe Federal Government.


Reason for Debannent
Your debarment is based upon a referral from NSF's Office ofInspector General (UOIG"). In
accordance with the OIG!s investigatiVe.reP01;t, you mismanaged and misappropriated NSF funds.


Regulatory Basis for Debarment .
Pur~uant to 2 CFR 180.800, debannent maybe imposed for:


(b) Violation of the terms ofa public agreement or transaction so serious as to affect the integrity
of any agency program, such as -                     .

(3) A willful violation of a statutory or regulatory provision or requirement applicable to a public
agreement or transaction; or
                                                                                                         •   I




 ***
 (d) Any other cause of so serious or compelling a nature that it affects your present responsibility.

 In any debannent action, the government must establish the cause for debarme~t by a
 preponderance ofthe evidence. 2 CFR 180.~50. Your misconduct, as set forth in the OIG's
 iJ.lvestigative report, supports a cause for debarment under 2 CFR 180.800(b)(3) and (d).


 Length ofDebarment
 Debarment must be for a period commensurate with the seriousness 0 fthe causes upon which an
 individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
 exceed three years but, where circumstanc~ warrant, a longer period may be impQsed. ld.
 Having considered the seriousness of your actions; as well as the relevant aggravatin,g.and
 mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period ofthrye
 years.


 Procedures Governing Proposed Debarment .
 The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
 decision~making. Under our regulations, you have 30 days after receipt of this notice to submit,
 in person, or in writing, or th9ugh a representative, information.and argument in opposition to this
 proposed debarment. 2 CFR 180.815, 180.820. Comments submitted within the 30-day period
 will receive full consideration and may lead to a revision of the recommended disposition. If NSF
 does not receive a response to this notice within the 30-day period, ,this debarment will become
 final .

. Any response should be addressed to Lawrence Rudolph, General Counse~ National Science
  Foundation, Office ofthe General Counse~ 4201 Wilson Boulevard, Room 1265, Arlington,
  Virginia, 22230. For your infomiation, we are attaching a copy of the Foundation's regulations
  oli non-procurement debarment and FAR SUbpar.t 9.4.



                                                       Sincerely,

                                                       ~fu-.\~
                                                       Cora B. Marrett
                                                       Acting Deputy Director

Enclosures:
OIG Irivestigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                               . i                                                  !V<.
                                     NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230



                                             OCT 2 6 l009

    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

Dr. Thomas Zeffiro




        Re: Debarment


Dear Dr. Zeffiro:

On July 15, 2009, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for three years .. The Notice sets forth in detail the circumstances giving rise to
NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that the
proposed debarment is based upon your mismanagement and misappropriation of NSF funds.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until July 15, 2012. Debarment precludes you from receiving Federal financial and non-
financial assistance and benefits under non-procurement Federal programs and activities unless an
agency head or authorized deSignee makes a determination to grant an exception in accordance
with 2 CFR Section 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency ofthe Executive Branch of the Federal
Government.
!
    If you have any questions regarding the foregoing, please contact
             National Science Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard,
    Room 1265, Arlington, Virginia, 22230.




                                                      Sincerely,



                                                     Cora B. Marrett
                                                     Acting Deputy Director
